   FAA’S ADMINISTRATION AND
OVERSIGHT OF REGIONALLY ISSUED
          CONTRACTS
     Federal Aviation Administration
      Report Number: AV-2004-094
     Date Issued: September 28, 2004
           U.S. Department of
                                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Administration and                                           Date:   September 28, 2004
           Oversight of Regionally Issued Contracts
           Federal Aviation Administration
           AV-2004-094

  From:    Alexis M. Stefani                                                           Reply to
                                                                                       Attn of:   JA-10
           Principal Assistant Inspector General
            for Auditing and Evaluation

    To:    Federal Aviation Administrator

           This report presents the results of our audit of service contracts issued by the
           Federal Aviation Administration’s (FAA) regions. Throughout the audit, we
           periodically met with FAA officials to discuss our findings, conclusions, and
           recommendations.

           FAA’s regions rely heavily on support services contracts to procure a wide range
           of services, from relatively simple services such as janitorial, clerical,
           administrative, and groundskeeping support to highly complex ones such as
           architectural, engineering, environmental, and installation support.

           Responsibility for the majority of FAA’s contracting functions lies within two
           organizations. The Air Traffic Organization’s Office of Acquisition and Business
           Services administers all contracts and interagency agreements awarded by FAA
           Headquarters.1 FAA’s Office of the Assistant Administrator for Region and
           Center Operations (ARC Organization) has responsibility for contracting services
           in FAA’s nine regions and the FAA Aeronautical Center.

           The focus of this audit was the contracting services provided by FAA’s nine
           regions. As of September 30, 2003, the total dollar value obligated on active
           service contracts issued by FAA’s nine regions was approximately $600 million.
           Our objectives were to determine whether FAA regional offices are
           (1) implementing adequate contract administration procedures, and (2) providing

           1
               The Air Traffic Organization’s Office of Operations Planning administers contracts issued by the FAA Technical
               Center.
                                                                                                             2


proper management oversight of contracts for services, such as engineering,
environmental, and installation support. Exhibit A contains details on the scope
and methodology we used in conducting the audit.


BACKGROUND
In 1996, Congress exempted FAA from most Federal procurement laws and
regulations and directed FAA to develop a new acquisition management system.
The goal of the new system was to provide more timely and cost-effective
acquisitions and improve the quality of equipment and services acquired. FAA’s
Acquisition Management System establishes policy and guidance for all aspects of
the acquisition life cycle. Although acquisition reform gave FAA more flexibility
in how it acquires services, it did not alleviate FAA’s responsibility to implement
sound business procedures to ensure contracts are properly administered.

According to the Office of Federal Procurement Policy, contract administration
involves those activities performed by Government officials after a contract has
been awarded to determine how well the Government and the contractor
performed in meeting the requirements of the contract. These activities include
issuing contract modifications; certifying contractor invoices to ensure costs are
allocable, allowable, and reasonable; and monitoring contract performance. As
such, contract administration constitutes that primary part of the procurement
process that assures the Government gets what it paid for.


RESULTS IN BRIEF
Since the implementation of FAA’s Acquisition Management System, we have
conducted numerous audits of FAA contracts and have consistently found a lack of
basic contract administration at every stage of FAA’s contract management, from
award to closeout. Our prior work on Headquarters contracting functions2
identified that FAA’s management of cost-reimbursable contracts was significantly
deficient. For example, we found that FAA (1) did not obtain audits of billions of
dollars in expenditures of cost-reimbursable contracts, (2) did not ensure reliable
Government cost estimates were prepared and used in evaluating contracts, and
(3) did not properly account for billings and expenditures to prevent overpayments.
As a result, in January 2004, we identified those deficiencies as a “material
weakness” reportable to the Congress and the President.


2
    OIG Report Number FI-2004-031, “Report on Consolidated Financial Statements for Fiscal Years 2003 and 2002,
    DOT,” January 30, 2004.
                                                                                  3




FAA subsequently made considerable progress in strengthening its oversight of
cost-reimbursable contracts, including dedicating $3 million for audits of 185 cost-
reimbursable contracts and initiating a “bottoms-up” review of its Headquarters
contract management functions. In June 2004, we agreed that the actions taken by
FAA warranted downgrading the deficiency from a material weakness to a
“reportable condition” on the Department’s next financial statement.

FAA’s recent actions to address controls over contracts issued by its Headquarters
are significant steps in correcting what had been a longstanding deficiency.
However, those actions do not address contracting functions within FAA regions
that are the responsibility of the ARC Organization. The results of our review
indicate that there are still substantial deficiencies in the administration and
oversight of contracts issued by FAA regional offices. Our review of 45 randomly
selected contracts worth $29.1 million at three regional offices found significant
weaknesses in internal controls that could expose FAA to potential fraud. For
example, we found:

   • Unauthorized individuals were negotiating, approving, and signing
     contractual agreements;

   • Independent cost estimates to ensure contractor bids were reasonable and
     complete were not done before contracts were awarded;

   • Completed contracts remained open for up to 4 years; and

   • Contract files lacked basic documentation critical for safeguarding the
     Government’s interests.

The internal control weaknesses we identified occurred largely because there was
no clear delineation of accountability for the administration and oversight of
regional contracting functions. During our review, FAA took timely actions to
address our concerns and substantially improve its administration and oversight of
regional contracts. Those actions included establishing a new position within the
ARC Organization to facilitate the consistent and appropriate implementation of
FAA’s Acquisition Management System within the regions.

Unauthorized individuals were negotiating, approving, and signing
contractual agreements. We found that on 7 of the 45 randomly selected
contracts (15 percent), FAA engineering personnel having no contracting authority
negotiated and signed approximately 150 unauthorized commitments totaling
approximately $8 million. For example,
                                                                                                              4


      • On one contract, an Airway Facilities program manager, who had no
        contracting authority, negotiated and signed approximately 85 task orders
        over a 5-year period. As a result, the contracting officer did not know when
        a task order was issued, what type of work was being requested and
        performed, or how much money was owed or paid to the contractor.

Unauthorized commitments constitute a serious breach of contracting authority. In
fact, FAA’s Acquisition Management System defines an unauthorized
commitment as a contract or agreement made by FAA employees that is not
binding because the person who made the agreement lacked the authority to
commit the Government.

We also found that on 3 of the 45 randomly selected contracts (7 percent), FAA
project managers bypassed Government competitive contracting requirements and
directed contracts to vendors they pre-selected. For example,

      • An FAA project engineer met with a contractor and negotiated and
        approved contract requirements and costs without notifying the contracting
        officer. After meeting with that contractor, the project engineer instructed
        the contracting officer to direct another contractor to issue a subcontract to
        the vendor pre-selected by the project engineer.

The competitive bidding process is a lynchpin of Government contracting controls
and essential for ensuring that Government contracts are free from waste, fraud,
and abuse. In this instance, by bypassing those controls, there is a significant risk
that opportunities exist for collusion, kickbacks, or other types of fraud to occur
between contractors and FAA employees.

Independent cost estimates to ensure contractor bids were reasonable and
complete were not done before contracts were awarded. One of the key tools
FAA has to protect itself from overpaying for goods and services is an
Independent Government Cost Estimate (IGCE). An IGCE provides the
Government with a basis to estimate the potential costs of a project and help
contracting officials determine the reasonableness and completeness of proposals
submitted by contractors. According to FAA’s Acquisition Management System,
IGCEs are also used to detect buy-ins, unbalanced pricing, or other techniques
used by contractors that can significantly increase the post-award cost of contracts.
However, we found that project engineers and regional contracting officials did
not prepare IGCEs for 22 of the 38 contracts (58 percent) that required them.3


3
    An IGCE was not required for 7 of the 45 contracts we reviewed due to the nature of the procurement, such as
    purchases made on the General Services Administration Federal Supply Schedule.
                                                                                                                  5




In addition, for the 16 contracts where IGCEs were done, we found FAA accepted
the contractor’s proposal without questioning significant variances between the
IGCE and the contractor’s proposal for labor hours, work plans, and/or costs. For
example,

      • On one contract, FAA’s IGCE was for $200,466 and the contractor’s
        proposal came in at $132,969, or 34 percent lower. Both the FAA project
        engineer and the regional contracting officer accepted the lower proposal.
        However, the contractor’s proposal contained half the labor hours and no
        estimate for environmental work as required by the statement of work for
        the project.

In this instance, by not questioning the variances, FAA opened itself up to future
contract modifications that could significantly increase the contract costs without
increasing the scope of work.

Completed contracts remained open for up to 4 years. FAA’s Acquisition
Management System states that once the requirements for a contract are complete,
the contract should be closed out in a timely fashion and excess funds deobligated.
This allows FAA to free excess funds for other projects and minimizes the cost of
administering the contract. However, regional contracting officials did not close
out completed and inactive contracts and task orders in a timely manner. We
found 18 of the 45 sampled contracts reviewed (40 percent) were completed or
inactive and should have been closed out. For example,

      • One inactive contract we reviewed remained open for more than 4 years. In
        March 2000, the contractor informed FAA that “we are no longer in a
        position to fulfill your request under the referenced delivery order.” As of
        May 2004, the contract was still open. As a result, $104,000 in obligated
        funds that could have been put to better use on other projects remained
        unused.

In total, we identified approximately $233,000 that remained open on the
18 completed or inactive contracts that could have been deobligated and put to
better use on other FAA programs.5



5
    In most cases, once funds are appropriated, FAA has up to 8 years to expend those funds. Otherwise, unused funds
    will be returned to the Treasury and are no longer available to support the Agency’s mission.
                                                                                  6




Contract files lacked basic documentation critical for safeguarding the
Government’s interests. FAA’s Acquisition Management System policies state
that the contract file is the official record for an acquisition and should contain
enough information so a history of contractual actions can be determined to
safeguard the Government’s interests. Having a complete contract file allows the
Agency to defend itself against potential lawsuits by contractors and provides
crucial data needed by FAA contracting officials to administer the contract or for
outside auditors, such as the Defense Contract Audit Agency (DCAA), to perform
required audits.

However, we identified that 23 of the 45 contracts (51 percent) lacked adequate
documentation to provide a sufficient history of the contractual actions to
safeguard the Government’s interests. The files lacked basic documents, such as a
complete copy of the contract, the original contract award, contract modifications,
and invoices. In fact, we determined that a majority of the sampled contract files
for one region were assembled approximately 2 weeks before our visit.

DCAA has also found that documentation in regional contract files was
inadequate. For example, while auditing a contract from the Southwest Region,
DCAA was unable to find a single complete copy of the contract and task orders
from either FAA or the contractor and so was unable to conduct a complete cost
audit requested by FAA regional officials.

Adequate contract documentation is also important because it provides contracting
officers with the back-up materials necessary to effectively administer their
contracts. We found that more than one contracting officer could not answer basic
questions regarding the contracts they were administering, such as how much the
contracts were funded for, how much funding had been expended, and how much
funding remained open on the contracts.

There Is a Statistically High Probability That Similar Control Weaknesses
Exist Throughout All FAA’s Regional Offices. Because our review consisted of
a stratified random sample, there is a high probability that the problems we found
in FAA’s contracting functions at the three regions visited exist throughout FAA’s
other six regions. For example, at the three regions visited, for the total universe
of 177 contracts (from which the 45 samples were randomly selected), we can
project that approximately 57 percent do not contain IGCEs, approximately
                                                                                                            7


44 percent should have been closed out, and approximately 58 percent do not
contain adequate documentation to provide a history of contractual actions.6

We determined that the internal control weaknesses we identified occurred largely
because there was no clear delineation of accountability for the administration and
oversight of regional contracting functions.          We found that both the
ARC Organization and regional management failed to provide adequate oversight
to ensure that regional contracts followed requirements of FAA’s Acquisition
Management System. In addition, we found that regional contracting officers
lacked the basic training necessary to properly administer contracts. We found that
14 of the 16 regional contracting officers whose contracts we reviewed did not
receive the 80 hours of required training for one or more of the last three 2-year
training cycles.

Recent Agency Actions Should Significantly Improve Oversight and
Administration of Regional Contracts. During our review, FAA took significant
actions to address our concerns and incorporate accountability within the ARC
Organization for regional contract administration and oversight. In December
2003, the ARC Organization established a new position, a National Logistics
Coordinator, to facilitate the consistent and appropriate implementation of FAA’s
Acquisition Management System within the regions. During the audit, the
Coordinator worked closely with our audit team at each site to analyze regional
contracting functions and determine the appropriate corrective actions needed.

In July 2004, the National Logistics Coordinator met with all regional Chiefs of
Contract Offices to review our findings and identify an action plan for making
corrections. In addition, initiatives such as training and performance standards are
being planned for implementation into the Region and Center Operations Fiscal
Year 2005 Business Plan.

During our site visits at each region, FAA also took immediate actions to address
our concerns. For example, during our site visits to one region, contracting
officials began a review to close out and deobligate funds on all inactive contracts
and began reviewing contracting files to identify missing documentation. At
another region, contracting officials took immediate steps to begin ratifying all
unauthorized commitments we identified and met with program officials to create
a process for ensuring that unauthorized commitments are not created in the future.

We commend FAA’s actions taken during our audit. They clearly represent steps
in the right direction and in conjunction with the Agency’s actions to address our

6
    Based on the statistical midpoint of a projected range of non-compliance with a maximum margin of error of
    +/-15 percentage points and a 95 percent confidence level.
                                                                                 8


recommendations should significantly improve controls over FAA’s administration
and oversight of regional contracts.




Recommendations
While the issues we found at FAA regional offices do not rise to the level of
materiality that we previously found in FAA Headquarters, they do represent
serious breaches in basic contract administration that could make support contracts
issued by FAA regions subject to fraud, waste, and abuse. Our recommendations
focus on the specific actions needed to improve the oversight and administration of
contract procedures within FAA regions. They include:

   • Completing the ratification process for all unauthorized commitments
     identified during our audit and ensuring that program managers and project
     engineers at all regions understand their roles under FAA’s Acquisition
     Management System contract authority.

   • Taking appropriate action to determine whether there are additional
     unauthorized commitments in the remaining six regions and beginning the
     ratification process for any additional unauthorized commitments identified.

   • Requiring all regions to review all contracts for completed or inactive
     contracts so they can begin the close-out process and deobligate any
     remaining funds, and ensuring that the approximately $233,000 remaining
     on the inactive or completed contracts we identified during this audit is
     deobligated and put to better use on other projects or returned to the
     Treasury.

   • Developing a process for conducting periodic reviews of regional
     contracting functions to ensure compliance with FAA’s Acquisition
     Management System policies.

   • Reviewing all regional contracting officers’ training to identify those
     officers who do not meet minimum requirements and limiting their warrant
     authority until they meet all training requirements.

A complete list of our recommendations can be found on page 17 of this report.
                                                                               9


Agency Comments
On August 19, 2004, we provided a draft copy of this report to officials from the
ARC Organization for their review and oral comments. In general, FAA officials
agreed with the facts as presented in our report and concurred with our
recommendations. We are requesting that FAA provide written comments on each
recommendation within 30 calendar days.
                                                                                10




FINDING AND RECOMMENDATIONS
We found that FAA regional offices did not exercise adequate contract
administration procedures over service contracts and that improvements are needed
in FAA’s administration and oversight of regionally issued contracts. Specifically,
at three regions visited, we randomly sampled 45 contracts worth $29.1 million
and found that regional contracting officials (1) bypassed FAA’s Acquisition
Management System (AMS) policies for issuing single-source contracts, (2) did
not effectively utilize government cost estimates, (3) did not close out contracts
and task orders in a timely manner, and (4) did not maintain adequate
documentation in contract files. We also found that regional program managers
without contracting authority signed approximately 150 unauthorized
commitments totaling approximately $8 million.

These deficiencies occurred because the ARC Organization and regional
management did not provide proper oversight of regionally issued contracts to
ensure that contracting personnel were adhering to AMS policies. In addition, we
found contracting officers lacked the basic training necessary to administer
contracts properly. For example, 14 of the 16 regional contracting officers whose
contracts we reviewed had not completed mandatory training requirements for
their positions. Because of the deficiencies we identified, FAA has only limited
assurance that support contracts issued by the regions are being effectively used
for the goods and services FAA needs or that those contracts are free from fraud,
waste, and abuse.


FAA Regional Personnel Without Contracting Authority Were
Negotiating, Approving, and Signing Contractual Agreements
The AMS states that contracts, agreements, and other transactions may be entered
into and signed on behalf of FAA by contracting officers only. However, we
found that on 7 of 45 randomly selected contracts, FAA engineering personnel
having no contracting authority negotiated and signed approximately
150 unauthorized commitments totaling approximately $8 million. For example:

   • On one contract, an Airway Facilities program manager negotiated and
     signed approximately 85 task orders over a 5-year period without having the
     authority to do so. As a result, the contracting officer did not know when a
     task order was issued, what type of work was being requested and
     performed, or how much money was owed or paid to the contractor. The
     same program manager signed task orders on five other contracts as well.
                                                                                                                   11


We also found that FAA project engineers would bypass contracting officials and
meet directly with vendors, using the contracting officer for signature authority
only. On four contracts in one region, we found project engineers met with
contractors to discuss, negotiate, and approve labor hours and contract costs before
the contractor submitted a proposal to FAA. For example:

• On one contract, the FAA project engineer, without assistance from the
  contracting officer, met with the contractor and discussed, negotiated, and
  approved the contractor’s cost proposals before the contractor submitted the bid
  to FAA. The contractor’s cost proposals for the original award and two
  subsequent scope revisions contained this language:

           − “The cost proposal has been coordinated with FAA [the Project
             Manager]…”

           − “This proposal has been negotiated with FAA project engineer [X]...”

           − “The proposed amount of $27,169.51 has been approved by FAA
             project engineer [X]…”

We also found three instances where contracting officers exceeded their warrant
authority7 by as much as $2.5 million. For example, we found that one contracting
officer’s warrant was set at $500,000, yet the contracting officer signed contracts
for up to $3 million. Although the contracting officer attributed the breach of the
warrant authority to an “administrative oversight” and a failure to request an
upgraded warrant, exceeding warrant authority results in an unauthorized
commitment.

Unauthorized commitments constitute a serious breach of contracting authority. In
fact, the AMS defines an unauthorized commitment as a contract or agreement
made by FAA employees that is not binding because the person who made the
agreement lacked the authority to commit the Government. Because of the
severity of this breach of contracting authority and the potential liability to the
Government, we briefed regional management on this issue during our site visit at
the time the unauthorized commitments were identified. Afterward, regional
contracting officials began the ratification process for the three unauthorized
commitments made when a contracting officer exceeded her warrant.

As a result of our briefing, contracting officials also notified both the Airway
Facilities and the regional National Airspace System Implementation Center that
engineering employees were signing unauthorized commitments and suggested a
7
    A contracting warrant authorizes the contracting officer to bind the FAA contractually and must expressly state the
    dollar limitations of this authority.
                                                                                 12


joint review to determine the extent of the issue. At the time of our site visit,
regional management had also begun the process of ratifying the unauthorized
commitments we identified during our audit.

We are requesting that within 90 days of the date of this report, the ARC
Organization provide a status of the ratification process for the unauthorized
commitments we identified during the audit. In addition, in conjunction with the
Air Traffic Organization’s Vice President for Technical Operations, the ARC
Organization should take appropriate actions to ensure that program managers and
project engineers understand their roles, responsibilities, and authority under the
AMS.


Procedures for Issuing Single Source Contracts Were Bypassed
AMS requires a rational basis for source selection decisions that result from either
a competition or a single source. FAA may contract with a single source when it is
determined to be in the best interest of the FAA and the rational basis is
documented. This rational basis may include emergencies, the effort to increase
standardization, or that only one vendor can satisfy the requirement within the time
required.    However, we found that contracting officers bypassed AMS
requirements for single source procurements on three contracts.

For example, an existing contract was used to obtain the services of a pre-selected
contractor. An FAA project engineer met with the potential contractor and
negotiated and then approved contract requirements and costs before notifying the
contracting officer. Then the project engineer requested that the contracting
officer require the existing contractor to issue a subcontract to the pre-selected
contractor for the services that were previously negotiated. As a result of
bypassing AMS guidance, FAA unnecessarily paid the existing contractor $12,500
essentially to pass paperwork on to the pre-selected contractor.


Regional Contracting Officials Did Not Adequately Use
Government Cost Estimates
One of the key tools FAA has to protect itself from overpaying for goods and
services is the IGCE. An IGCE provides the Government with a basis to estimate
the potential cost of a project and help contracting officials determine the
reasonableness, fairness, and completeness of proposals submitted by contractors.
According to the AMS, IGCEs are also used to detect buy-ins, unbalanced pricing,
and other techniques used by contractors that can significantly increase the post-
award cost of contracts. However, we found that project engineers and regional
                                                                                                                13


contracting officials did not effectively use IGCEs to ensure that contractor
proposals were complete, fair, and reasonable.

We found that IGCEs were not completed for 22 of the 388 contracts we reviewed
that required IGCEs. In addition, when IGCEs were submitted, neither FAA
project engineers nor regional contracting officials questioned significant
variances between the FAA IGCE and the contractor proposal for labor hours,
work plans, or costs. For example:

      • On one contract, FAA’s IGCE was for $200,466 and the contractor’s
        proposal came in at $132,969—34 percent lower. Both the FAA project
        engineer and the regional contracting officer accepted the proposal without
        questioning why the contractor’s proposal contained half the labor hours
        and no estimate for environmental work, which was required by the
        statement of work for the project. By not questioning the variances, FAA
        opened itself up to future contract modifications that could significantly
        increase the contract costs without increasing the scope of work.

Project engineers and regional contracting officers we spoke with stated that if the
contractor’s proposal and the IGCE estimate were close, they would accept the
contractor’s bid without reviewing the breakout of line-item costs.

Although the AMS does not establish a specific dollar threshold at which IGCEs
must be prepared, it is not unreasonable in our opinion to expect that contracts
with a dollar threshold above $10,000 will have an IGCE prepared. Accordingly,
we are recommending that regional contracting officers request IGCEs for all
contracts over $10,000 and analyze any variances of 10 percent or more between
the Government’s IGCE and the contractor’s proposal.


Regional Contracting Officials Did Not Close Out and Deobligate
Excess Funds from Completed and Inactive Contracts in a
Timely Manner
The AMS states that once the requirements for a contract are complete, the
contract should be closed out in a timely fashion and excess funds deobligated.
This allows FAA to free excess funds for other projects9 and minimizes the cost of
administering the contract. However, regional contracting officials did not close
out completed and inactive contracts and task orders in a timely manner. We


8
    An IGCE was not required for 7 of the 45 contracts we reviewed due to the nature of the procurement
    (e.g., purchases made on the General Services Administration Federal Supply Schedule).
9
    In most cases, once funds are appropriated, FAA has up to 8 years to expend those funds. Otherwise, unused funds
    will be returned to the Treasury and are no longer available to support the Agency’s mission.
                                                                                                                      14


found 18 of the 45 sampled contracts were completed or inactive and should have
been closed out. For example:

       • One inactive contract we reviewed remained open for more than 4 years. In
         March 2000, the contractor informed FAA that “we are no longer in a
         position to fulfill your request…under the referenced delivery order.” As of
         May 2004, the contract was still open. As a result, $104,000 in obligated
         funds that could have been put to use on other projects remained unused.

In total, we identified $232,962 that remained open on the 18 completed or
inactive contracts. The ARC Organization needs to ensure that the $232,962 is
deobligated and put to use on other FAA programs or, if required, returned to the
Treasury. Because our sample was randomly selected, there is a high likelihood
that there is a significant number of complete or inactive contracts that should be
closed out throughout all FAA regions.10 As a result, we are recommending that
all regions review contracts for completed or inactive contracts to begin the close-
out process and to deobligate any remaining funds.


Regional Contract Files Lacked Sufficient Documentation To
Provide a History of Contractual Actions
AMS policies state that the contract file is the official record for an acquisition and
should contain enough information so a history of contractual actions can be
determined. Having a complete contract file allows the Agency to defend itself
against potential lawsuits by contractors and provides crucial data needed by FAA
contracting officials and outside auditors, such as DCAA, to perform required
audits. We found that contract files for 23 of the 45 contracts sampled lacked
adequate documentation to provide a sufficient history of contractual actions. As
shown in the table, many contract files were missing key documents.

        Table. Required Documentation Missing From 45 Sampled
                            Contract Files
     Region                       Number of Sampled Contracts Missing Documentation*
                  Invoices        Invoice             Invoice            IGCEs         Close-out           Historical
                                Certification       Justification                      Documen-            Documen-
                                                                                        tation              tation
Southwest               1                 2                   5                9             8                    3
Southern               12               13                  13                 4             5                  15
Eastern                 2                 7                   5                9             5                    5

10
     Because of the methodology used in our sample selection, we could not project a potential dollar value of closed or
     inactive contracts throughout all FAA regions.
                                                                                                                   15


     Total            15               22                  23               22           18                  23
*     Includes documentation such as procurement requests, funding approval, statement of work, contractor’s proposal,
      and bid solicitations

In fact, we determined that a majority of the sampled contract files for one region
were assembled approximately 2 weeks prior to our visit. These files did not
contain basic documents, such as the original contract award, contract
modifications, and invoices. These documents are important because they provide
contracting officers with the back-up materials necessary to adequately administer
their contracts and protect the Government’s interests. We found that more than
one contracting officer could not answer basic questions regarding the contract he
or she was administering, such as how much the contract was funded for, how
much funding had been expended, and how much funding remained on the
contract.

DCAA has also found that documentation in regional contract files was
inadequate. For example, while auditing a contract from the Southwest Region,
DCAA was unable to find a single complete copy of the contract and task orders
from either FAA or the contractor. In addition, DCAA found that the contractor
and an FAA representative made a verbal agreement to change the terms of the
contract, but the agreement was never documented by FAA. As a result, DCAA
concluded that “the audit results are qualified to the extent that an examination of
the records which were unavailable may have disclosed additional questioned
costs.”

Based on the deficiencies we found in the random sample of 45 contracts, we can
project the likelihood of the deficiencies occurring if we had reviewed the entire
population of 177 contracts from the three regions. These projections indicate that
around 58 percent of the 177 contracts at the regions we visited did not have
adequate documentation to provide a complete history of the contractual actions.11
Because our review consisted of a stratified random sample, there is a high
probability that the problems we found in FAA’s contracting function at the three
regions visited exist throughout FAA’s other six regions as well. (See Exhibit B
for complete statistical projections of non-compliance.)


The ARC Organization and Regional Management Did Not
Review the Effectiveness of Contract Administration Procedures
The deficiencies we identified occurred because the ARC Organization and
regional management did not adequately oversee regional contract administration

11
     This is based on the statistical midpoint of a projected range of non-compliance with a maximum margin of error of
     +/-15 percentage points and a 95 percent confidence level.
                                                                                                                      16


functions. Specifically, we found that the ARC Organization did not review
whether regions were implementing effective contract administration procedures
or whether they were following the AMS. In addition, we found that regional
contracting management did not perform periodic reviews of their contract
administration procedures to ensure adherence to AMS policies and procedures. In
some cases, a periodic review may have detected major lapses in contract
administration by senior contracting officials. For example:

       • External auditors detected that one contracting officer exceeded his or her
         warrant authority and informed FAA of this violation in June 2003. Yet
         FAA took no actions to ratify the unauthorized agreement until we informed
         them of the same violation in December 2003.

We are recommending that the ARC Organization develop a management
oversight system for periodically reviewing regional contracting functions to
ensure compliance with AMS policies on issues such as contracting authority,
single source procurements, invoice certification, contract closeout, and contract
documentation.


Regional Contracting Officers Did Not Receive Adequate
Training
In 1996, Congress amended the Office of Federal Procurement Policy Act to
establish education, training, and experience requirements for the acquisition
career field at civilian agencies. FAA’s Acquisition Career Development Policy
for Contracting Professionals is designed to attract, select, develop and retain a
highly qualified workforce capable of performing acquisition functions. Among
the requirements are courses that contracting officers must take before being
promoted to a higher acquisition level.12 In addition, FAA Acquisition Career
Development Policy for Contracting Professionals requires contracting officers to
complete 80 hours of continuing education training every 2 years to maintain their
certification level. This ensures that contracting officers have the skills and
knowledge necessary to perform their duties.

However, we found that regional contracting officers did not meet the training
requirements for either of the training requirements. Of the 16 regional
contracting officers whose contracts we reviewed, only 8 of them had met the
mandatory training requirements for their acquisition level. In addition, only two
met the 80-hour continuous training requirement for one or more of the previous
three 2-year training cycles. In fact, at one region we visited, none of the

12
     FAA’s contracting functions are organized into three levels—the higher the level the greater responsibility and grade
     of the contracting officer.
                                                                                17


contracting officers (each of whom had an unlimited contract warrant authority)
had met the 2-year training cycle requirements for any of the three previous
training cycles.



We are recommending that the ARC Organization review all regional contracting
officers’ training records to ensure that regional contracting officers have met or
plan to meet their 80-hour biennial continuous training requirement. We are also
recommending that the ARC Organization take action to limit the warrant
authority of any contracting officer who does not meet the standards for their
contracting level or the 80-hour continuous education training requirement.


Recent Actions Taken by the ARC Organization and Regional
Management Should Significantly Improve Administration and
Oversight of Regional Contracts
During the course of our review, we received the full cooperation of both the ARC
Organization and regional contracting management, and both groups took timely
actions to correct the deficiencies we identified. During our site visits at each
region, FAA took immediate actions to address our concerns.

For example, during our site visits to one region, contracting officials began a
review to close out and deobligate funds on all inactive contracts and reviewed all
contracting files to identify missing documentation. At another region, contracting
officials took immediate steps to begin ratifying all unauthorized commitments we
identified and met with program officials to create a process for ensuring that
unauthorized commitments are not created in the future.

FAA also took steps to address our concerns regarding the lack of oversight for
regional contracting functions. For example, in December 2003, the ARC
Organization established a new position, the National Logistics Coordinator, to
facilitate the consistent and appropriate implementation of the AMS within the
regions. During the audit, the Coordinator worked closely with our audit team at
each site to analyze regional contracting functions and determine the appropriate
corrective actions needed.

In July 2004, the Coordinator met with all regional Chiefs of Contract Offices to
review our findings and identify an action plan for making corrections. In
addition, initiatives such as training and performance standards are being
incorporated into the Region and Center Operations Fiscal Year 2005 Business
Plan.
                                                                          18


We commend FAA’s actions taken during our audit. They clearly represent steps
in the right direction.
                                                                                 19


RECOMMENDATIONS
We recommend that the FAA Assistant Administrator for Region and Center
Operations:

1. Provide us within 90 days of the date of this report a status report on the
   ratification process for the unauthorized commitments worth approximately
   $8 million identified during our review.

2. Determine whether there are additional unauthorized commitments in the
   remaining six regions and begin the ratification process for any unauthorized
   commitments identified.

3. In conjunction with the Air Traffic Organization’s Vice President for Technical
   Operations, ensure that program managers and project engineers understand
   their roles and responsibilities under AMS guidelines.

4. Implement procedures requiring that regional contracting officers request
   IGCEs for all contracts over $10,000 and analyze any variances of 10 percent
   or more between the IGCE and the contractor’s proposal.

5. Establish a process for conducting periodic reviews of regional contracting
   functions to ensure compliance with AMS policies on issues such as
   contracting authority, single source procurements, invoice certification,
   contract closeout, and contract documentation.

6. Require all regions within 90 days of the date of this report to review contracts
   for completed or inactive contracts so they can begin the close-out process and
   deobligate any remaining funds.

7. Ensure that the $232,962 remaining on the 18 inactive or completed contracts
   we identified during this audit is deobligated and put to better use on other
   projects or returned to the Treasury.

8. Review all regional contracting officers’ training records within 90 days of the
   date of this report to ensure that contracting officers have met or plan to meet
   their 80-hour, biennial mandatory training requirement and limit the warrant
   authority of contracting officers who do not meet minimum training
   requirements until they meet all the standards for their contracting grade level
   and/or the 80-hour continuous education training requirements.
                                                                                  20


AGENCY COMMENTS
On August 19, 2004, we provided a draft copy of this report to officials from the
ARC Organization for their review and oral comments. In general, FAA officials
agreed with the facts as presented in our report and concurred with our
recommendations.

ACTIONS REQUIRED
In accordance with Department of Transportation Order 8000.1C, we would
appreciate receiving your formal comments on this report within 30 calendar days.
If you concur with the finding and recommendations, please indicate the specific
actions taken or planned and the target dates for action. Please also indicate if you
agree with funds we identified that could be put to better use. If you do not
concur, please provide an explanation of your position. We welcome any
alternative courses of action that could resolve the issues.

We appreciate the cooperation and assistance provided by you and your staff
during the audit. If you have any questions or need further information, please
contact me at (202) 366-1992 or David A. Dobbs, Assistant Inspector General for
Aviation Audits, at (202) 366-0500.

                                         #



cc:    FAA Deputy Administrator
       FAA Chief of Staff
       Anthony Williams, ABU-10
                                                                                                                   21




EXHIBIT A. SCOPE AND METHODOLOGY
The audit was conducted in accordance with Government Auditing Standards
prescribed by the Comptroller General of the United States and included such tests
as we considered necessary to provide reasonable assurance of detecting abuse or
illegal acts. We performed the audit between November 2003 and June 2004 at
FAA Headquarters and FAA’s Southwestern, Southern, and Eastern Regional
offices.

To identify total number and dollar value of contracts issued from each region, we
requested from FAA the database of all contracts contained in the ACQUIRE
system as of September 30, 2003.13 ACQUIRE is FAA’s system for collecting,
maintaining, and reporting FAA contracting data.14 From this database, we chose
all open contracts with an estimated completion date of October 1, 2002, or later.
We focused our objectives on all contracts issued under the technical categories of
architectural, engineering, environmental, and installation service contracts. The
Office of Inspector General’s statistician drew a random, stratified statistical
sample of 15 contracts per region (5 contracts with a dollar value of between
$10,000 and $100,000 and 10 contracts with a dollar value greater than $100,000).

The following methodology was used in analyzing the 15 contracts within the
3 FAA regions. To determine whether FAA regional offices are implementing
adequate contract administration procedures, we interviewed Headquarters and
regional contracting officials to identify whether policies and procedures are in
place for regional contract administration. We reviewed the Agency’s Acquisition
Management System and the FAA Acquisition System Toolset to review the
acquisition policies and procedures that the Agency adopted for its regional
contract administration procedures and management oversight.

For each contract in our sample, we reviewed the Official Contract File, as well as
supporting documentation in the files of the project engineers and the regional
accounting divisions. We reviewed the documentation for compliance with
Agency policies, including but not limited to contract award, contract revisions,
delegations of authority, independent government cost estimates, contractor work
plans, contractor invoices, contractor correspondence, and contract close-out
documentation. Additionally, we reviewed for compliance Agency policies on
contracting authority to determine if non-contracting personnel were negotiating,


13
     We used ACQUIRE data to select our sample at the three regions visited. Our results are based on data contained in
     the sampled contracts and not on data contained in ACQUIRE.
14
     As of October 2003, FAA switched from ACQUIRE to the PRISM database system.


Exhibit A. Scope and Methodology
                                                                                  22


discussing, or approving contractual actions with contractor personnel before the
contracting officer became involved.

To determine whether FAA regional offices were providing proper management
oversight on support service contracts, we interviewed acquisition officials from
the ARC Organization and regional offices about policies and procedures in place
regarding regional contract management oversight and about whether management
performed periodic reviews of contract administration procedures for compliance
with AMS requirements. In addition, we reviewed FAA personnel policies to
determine FAA’s training requirements for contracting officers. We then reviewed
regional training records to determine if the contracting officers met those training
requirements.




Exhibit A. Scope and Methodology
                                                                                                                     23




EXHIBIT B. PROJECTIONS OF NON-COMPLIANCE
WITH AMS IN REGIONAL SERVICE CONTRACTS

     Type of Non-       Non-compliance                       Projections for Non-compliance
      compliance          in Sample                        in the Contract Universe* (N=177)
                            (n=45)               No. of Contracts          Percent of       Statistical
                                                                           Contracts        Midpoint
    Unauthorized                 7                    10 – 21              6% – 12%            9%
    Commitments
    No IGCE**                   22                    74 – 128                42% – 73%                  57%

    No Close-out                18                    51 – 103                29% – 58%                  44%
    Documentation
    No Historical               23                    83 – 123                47% – 70%                  58%
    Documentation
*    Engineering, environmental, installation, and architectural and engineering contracts issued by Eastern, Southern,
     and Southwestern Regional Offices
** IGCE: Independent Government Cost Estimate




Exhibit B. Projections of Non-compliance With AMS in Regional
Service Contracts
